           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        LAS VEGAS SOCIAL
      SECURITY CARD CENTER


   February 2007   A-09-06-16101




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:      February 8, 2007                                                                Refer To:

To:        Peter D. Spencer
           Regional Commissioner
            San Francisco

From:      Inspector General

Subject:   Las Vegas Social Security Card Center (A-09-06-16101)


           OBJECTIVE
           Our objective was to evaluate the Social Security Administration’s (SSA) compliance
           with policies and procedures when processing Social Security number (SSN)
           applications at the Las Vegas Social Security Card Center (LVSSCC).

           BACKGROUND
           On April 18, 2005, SSA opened the LVSSCC as part of its efforts to improve public
           service and strengthen the integrity of the enumeration process. LVSSCC processes
           all requests for original and replacement SSNs for residents of the Las Vegas Valley
           and greater Southern Nevada area. It was the second SSA office of its kind in the
           nation devoted entirely to processing SSN applications. 1 Some of the expected
           benefits include reduced wait times, fewer processing delays, and lower error rates.
           In its first 10 months, LVSSCC issued over 8,200 and 65,000 original and replacement
           SSN cards, respectively.

           When an individual applies for an original SSN, he or she must complete, sign, and
           submit a Form SS-5, Application for a Social Security Card. U.S. citizens must provide
           acceptable documentary evidence of age, identity, and citizenship. Noncitizens must
           provide evidence of age, identity, and work-authorized lawful alien status or a valid
           nonwork reason. To obtain a replacement SSN card, an individual must complete a
           Form SS-5 and provide evidence of identity. Noncitizens must also provide evidence
                                                                             2
           of work-authorized lawful alien status or a valid nonwork reason.

           1
             SSA opened the Brooklyn Social Security Card Center in Brooklyn, New York, in November 2002 and
           the Queens Social Security Card Center in Jamaica, New York, in July 2006.
           2
               SSA, Program Operations Manual System (POMS), RM 00202.001 and RM 00203.001.
Page 2 – Peter D. Spencer

Effective December 17, 2005, the Intelligence Reform and Terrorism Prevention Act of
                                                                 3
2004 imposed new requirements to the enumeration process. These changes include
acceptable evidence for identity and citizenship, a requirement to verify birth certificates
for U.S.-born applicants for an original SSN, and a limit of 3 replacement Social
Security cards per year and 10 over a lifetime. 4

RESULTS OF REVIEW

We found that LVSSCC generally complied with SSA policies and procedures
when processing SSN applications. However, we identified the following areas for
improvement.

    Issuance of Social Security cards in the applicant’s legal name

    Completion of “relationship to applicant” field on the Form SS-5

    Supervisory review of original SSNs for U.S.-born applicants over age 12

    Inspection of identity documents submitted by applicants

We also found that SSA field offices (FO) improperly issued SSNs for residents in the
LVSSCC servicing area. Finally, our review disclosed that LVSSCC did not provide
adequate safeguards over the Social Security cards mailed to LVSSCC.

ISSUANCE OF SOCIAL SECURITY CARDS IN THE APPLICANT’S LEGAL NAME

Our review of a random sample of 200 original and replacement Social Security
cards assigned to U.S. citizens and noncitizens 5 found that LVSSCC had issued
one Social Security card that was not in the applicant’s legal name. The applicant was
a noncitizen who had applied for a replacement SSN. However, LVSSCC used a last
name for the Social Security card that did not match the legal name on Department of
Homeland Security (DHS) records. This occurred because the employee bypassed the
alert process that verifies the applicant’s name with DHS.
DHS issues immigration documents in the person’s legal name. When immigration
documents are presented as evidence for a Social Security card, the name on the
immigration documents is presumed to be the person’s legal name. In addition, SSA



3
    Pub. L. No. 108-458, § 7213.
4
    SSA, Policy Instruction AM-05209 SEN, December 14, 2005.
5
  Our random sample included 50 SSN applications from each of 4 strata consisting of (1) 693 original
SSNs for U.S. citizens, (2) 1,674 original SSNs for noncitizens, (3) 12,984 replacement SSNs for
U.S. citizens, and (4) 1,338 replacement SSNs for noncitizens.
Page 3 – Peter D. Spencer

policies state that its records should reflect the individual’s legal name to comply with
                                                                       6
State matching agreements and for homeland security purposes.

COMPLETION OF “RELATIONSHIP TO APPLICANT” FIELD ON THE FORM SS-5

Our review of a random sample of 200 SSN applications disclosed that LVSSCC
staff did not complete the “relationship to applicant” field on the Form SS-5 for
40 (20 percent). According to LVSSCC staff, applicants complete a Form SS-5 before
their interview. During the interview, SSA enters information from the Form SS-5
into the Modernized Enumeration System (MES) and prints a computer-generated
application for the applicant to review and sign. SSA retains the computer-generated
application and destroys the Form SS-5.

SSA policies state the person signing the Form SS-5 must indicate their relationship to
the person for whom the Social Security card is requested. SSA staff must determine
whether the person signing the Form SS-5 is a “proper applicant” and ensure the
appropriate block is checked on the application. 7 SSA defines a “proper applicant” as
someone who can apply for and receive a Social Security card for themselves or for
                8
another person.

SUPERVISORY REVIEW OF ORIGINAL SSNs FOR U.S.-BORN APPLICANTS OVER
AGE 12

From December 17, 2005 to February 28, 2006, we identified 10 original SSNs issued
to U.S.-born applicants over age 12. Our review found that LVSSCC improperly
processed four (40 percent). Specifically, we found that (1) a supervisor (or equivalent)
did not sign and clear the application through MES for two SSN applications,
(2) LVSSCC staff did not document the verification of birth certificates presented for
three SSN applications, and (3) LVSSCC staff did not document the identification of
                                                                            9
the individual applying on behalf of the applicant for one SSN application.




6
    SSA, POMS, RM 00203.210.A.2.
7
    SSA, POMS, RM 00202.170.
8
    SSA, POMS, RM 00202.005.A.3.
9
  These errors are not mutually exclusive. One of the four SSN applications contained all three types of
errors.
Page 4 – Peter D. Spencer

SSA policies require a mandatory in-person interview for U.S.-born applicants over
age 12 to locate any previous SSN used and prevent an individual from assuming a
false identity. SSA staff must immediately place the application in pending status while
they verify the existence of a birth certificate and the statements made by the claimant
for not possessing an SSN. In addition, a supervisor (or equivalent) must sign the
completed application and clear it through MES. 10

INSPECTION OF IDENTITY DOCUMENTS SUBMITTED BY APPLICANTS

During our review, we observed the LVSSCC staff process 41 original and replacement
SSN applications for U.S. citizens and noncitizens. We found the identity documents
submitted by applicants for 37 (90.2 percent) of these SSN applications were not
inspected in accordance with SSA policies and procedures.

When an applicant submits an identity document, SSA policies require that the
document be compared with a visual standard, if available. A visual standard is an
                                                                                 11
exhibit of a document that is used for evaluating the authenticity of a document. In
addition, any documents submitted as evidence of citizenship must be examined and
                                               12
viewed under a black light to detect erasures.

Of the 37 SSN applications, we identified 26 where LVSSCC staff did not use both
a visual standard and black light to inspect the documents. Of the remaining 11, we
found that 9 were not compared to a visual standard, and 2 were not viewed under a
black light. Based on our interviews and observations, we believe LVSSCC staff had
the resources to properly examine and verify the documents submitted as evidence for
a Social Security card. However, the use of such resources varied among staff.

We believe LVSSCC staff should ensure all documents are compared to a visual
standard and viewed under a black light to minimize the risk of assigning an SSN based
on fraudulent documents and maintain the integrity of the enumeration process.

FOs IMPROPERLY PROCESSED SSN APPLICATIONS

We found that FOs did not always comply with SSA policies and procedures when
processing SSN applications for residents within the LVSSCC servicing area. Between
April 18, 2005 and February 28, 2006, 2,816 individuals with addresses in the LVSSCC
servicing area had applied for and were issued original or replacement SSNs by FOs
rather than LVSSCC.



10
     SSA, POMS, RM 00202.055.
11
     SSA, POMS, RM 00203.200.B.4.
12
     SSA, POMS, RM 00203.040.B and RM 00203.310.C.
Page 5 – Peter D. Spencer

With the opening of LVSSCC, SSA policies state that all individuals with a mailing
address in the servicing areas of the Las Vegas and North Las Vegas FOs must
complete all SSN transactions at a card center. However, SSN transactions that are
performed in conjunction with initial claims or post-entitlement actions may continue to
                                                      13
be processed by the FO handling the related action.

Las Vegas and North Las Vegas FOs

We found the Las Vegas or North Las Vegas FOs had processed 1,269 of the
2,816 SSN applications for individuals with mailing addresses in the LVSSCC servicing
area. We selected a random sample of 50 of these applications. We found these FOs
had improperly processed five (10 percent) of the SSN applications with no related
initial claims or post-entitlement actions. This occurred, in part, because existing
controls were not sufficient to preclude FOs from processing SSN applications for
residents within the LVSSCC servicing area.

SSA developed the SS-5 Assistant, a Microsoft Access-based application, to work
in conjunction with MES to support the processing of SSN applications. Effective
April 11, 2005, the SS-5 Assistant generates an on-screen alert when SSA staff located
outside the LVSSCC enter address information for an applicant residing within the
areas serviced by the LVSSCC. However, the SS-5 Assistant allows SSA staff to
bypass the alert and continue with processing the SSN application. 14

FOs Outside of LVSSCC Servicing Area

We found that FOs outside of Las Vegas had processed 1,547 of the 2,816 SSN
applications for individuals with a mailing address in the LVSSCC servicing area.
We selected a random sample of 50 of these applications. We found these FOs had
improperly processed 48 (96 percent) of the SSN applications with no related initial
claims or post-entitlement actions. In July 2006, we referred these cases to the
San Francisco Regional Office for corrective action.

To prevent future occurrences, we encourage SSA to strengthen controls to ensure
SSN applications for individuals with mailing addresses in the LVSSCC servicing area
are processed by a card center rather than an FO. As a result of our review, SSA
issued a reminder in September 2006 on the proper procedures for referring individuals
who are conducting SSN business and live in geographic areas serviced by a card
center. 15



13
     SSA, POMS, RM 00201.015.B.2.
14
     SSA, Policy Instruction AM-05053 SEN, April 11, 2005.
15
     SSA, Policy Instruction EM-06058, September 19, 2006.
Page 6 – Peter D. Spencer

CONTROLS OVER SOCIAL SECURITY CARDS MAILED TO LVSSCC

We found that LVSSCC did not provide adequate safeguards over the Social Security
cards mailed to LVSSCC. Specifically, we found that LVSSCC could improve its
controls to ensure Social Security cards were properly (1) received, distributed, or
destroyed and (2) addressed to the FO manager, as required.

Receipt and Disposition of Social Security Cards

We found that controls over the receipt and disposition of Social Security cards
mailed to LVSSCC could be improved. LVSSCC did not maintain documentation of the
Social Security cards received, distributed, or destroyed. Between April 18, 2005 and
February 28, 2006, 981 Social Security cards had been mailed to LVSSCC. However,
LVSSCC could not determine whether these cards were received by LVSSCC, picked
up by the applicant, or destroyed.

SSA policies state that applicants who plan to relocate but do not have a forwarding
address, are homeless, or have experienced problems with nonreceipt of mail may
have their Social Security cards mailed to an SSA office. 16 However, SSA policies
do not provide specific guidance for securing; monitoring; tracking; or, if necessary,
destroying cards mailed to the office.

LVSSCC places all Social Security cards mailed to the card center in a file cabinet.
According to LVSSCC management, the applicant must show proper identification
before staff will release the card to the applicant. LVSSCC periodically removes any
cards that the applicant did not pick up. These cards are generally destroyed about
2 months after the SSN applications are completed.

As a result of our review, LVSSCC implemented procedures to document the receipt,
control, and disposition of Social Security cards mailed to the card center. These
procedures included a spreadsheet to record the date each card is received; name
and SSN on the card; date it is picked up; name of management official releasing the
card to the applicant; and date the card is shredded, if not picked up within 30 days.
In addition, the San Francisco Regional Office issued procedures to ensure Social
Security cards mailed to all FOs are properly controlled and safeguarded. 17




16
     SSA, POMS, RM 00202.110.B.2.
17
     SSA, Regional Memorandum No. F-06-019, September 12, 2006.
Page 7 – Peter D. Spencer

Social Security Cards Not Properly Addressed

Of the 981 Social Security cards mailed to LVSSCC from April 18, 2005 to
February 28, 2006, we found that 970 (98.9 percent) were not addressed in accordance
with SSA policies and procedures. This occurred because LVSSCC staff was not fully
aware that Social Security cards mailed to LVSSCC should be addressed to the FO
Manager. Instead, LVSSCC staff entered the mailing address of the card center
without a “care of” or “attention” heading.

SSA policies allow applicants to pick up their Social Security cards at an SSA office.
However, any cards mailed to an SSA office should be addressed directly to the
             18
FO manager.

As a result of our review, in August 2006, SSA updated the SS-5 Assistant to include
the heading “SSA FO Manager” with the LVSSCC address. LVSSCC management
instructed its staff to use the new address format when processing applications for
Social Security cards to be mailed to the card center.

CONCLUSION AND RECOMMENDATIONS
Except as noted above, LVSSCC generally complied with SSA policies and procedures
when processing SSN applications. In addition, LVSSCC has taken proactive steps to
address some of our findings to ensure all staff fully complies with SSA policies and
procedures when processing an SSN application. We recommend that the
San Francisco Regional Office:

1. Ensure LVSSCC staff fully complies with SSA policies and procedures when
   processing SSN applications for original and replacement Social Security cards.
   Some of the areas of specific attention should be:

      •   use of legal name on immigration documents for Social Security cards issued to
          noncitizens;
      •   completion of “relationship to applicant” field on the Form SS-5;
      •   supervisory review of original SSN applications for U.S.-born individuals over
          age 12; and
      •   inspection of identity documents submitted by applicants through use of a visual
          standard and black light.

2. Continue to monitor controls to ensure SSN applications for individuals with mailing
   addresses in the LVSSCC servicing area are processed by a card center rather than
   a FO.

18
     SSA, POMS, RM 00202.110.B.2.
Page 8 – Peter D. Spencer

3. Continue to monitor procedures to ensure Social Security cards mailed to LVSSCC
   are properly controlled and safeguarded.

AGENCY COMMENTS
SSA agreed with all our recommendations. See Appendix C for the full text of SSA’s
comments.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
DHS           Department of Homeland Security
FO            Field Office
Form SS-5     Application for a Social Security Card
LVSSCC        Las Vegas Social Security Card Center
MES           Modernized Enumeration System
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSN           Social Security Number
                                                                          Appendix B

Scope and Methodology
We obtained a data extract from the Social Security Administration’s (SSA) Modernized
Enumeration System (MES) Transaction History File. From this extract, we identified
a population of 16,689 individuals who had applied for original or replacement Social
Security number (SSN) cards at the Las Vegas Social Security Card Center (LVSSCC)
between December 17, 2005 and February 28, 2006. We selected a random sample of
200 SSN applications from 4 strata (that is, 50 SSN applications per stratum) consisting
of (1) 693 original SSNs for U.S. citizens, (2) 1,674 original SSNs for noncitizens,
(3) 12,984 replacement SSN cards for U.S. citizens, and (4) 1,338 replacement SSN
cards for noncitizens.

We also identified a population of 2,816 individuals with addresses in the LVSSCC
servicing area who had applied for original or replacement SSN cards at field offices
(FO) rather than LVSSCC between April 18, 2005 and February 28, 2006. We selected
a random sample of 100 SSN applications from 2 strata (that is, 50 SSN applications
per stratum) consisting of (1) 1,269 original and replacement SSN cards assigned at the
Las Vegas and North Las Vegas FOs that are within the LVSSCC servicing area,
and (2) 1,547 original and replacement SSN cards assigned at other FOs that are
outside the LVSSCC servicing area.

To accomplish our objective, we:

•   Reviewed the applicable Federal laws, SSA’s Program Operations Manual System,
    and other policy memorandums.

•   For each sample item, obtained query from SSA’s Numident and reviewed the
    Form SS-5, Application for a Social Security Card.

•   Observed the processing of SSN applications by LVSSCC staff to determine
    compliance with SSA policies and procedures.

•   Independently verified documents submitted by applicants with the issuing agency,
    including immigration documents with the Department of Homeland Security, birth
    certificates with the Bureau of Vital Statistics, and driver’s licenses and identification
    cards with the Department of Motor Vehicles.

•   Interviewed SSA employees from LVSSCC, the San Francisco Regional
    Office, Office of Central Operations, and Office of Public Service and Operations
    Support.




                                            B-1
We determined the computer-processed data from MES were sufficiently reliable for
our intended use. Our work was conducted at LVSSCC in Las Vegas, Nevada, and
San Francisco Regional Office in Richmond, California, between April and
October 2006. The entity reviewed was the San Francisco Regional Office under the
Deputy Commissioner for Operations. We conducted our audit in accordance with
generally accepted government auditing standards.




                                      B-2
                  Appendix C

Agency Comments
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT, “AUDIT OF THE
    LAS VEGAS SOCIAL SECURITY CARD CENTER (A-09-06-16101)


Thank you for the opportunity to review and comment on the subject draft report.
Our responses to the specific recommendations are provided below. The
objective of the audit was to evaluate the Social Security Administration’s
compliance with policies and procedures when processing Social Security
number applications at the Las Vegas Social Security Card Center (LVSSCC).

Recommendation 1

Ensure LVSSCC staff fully complies with SSA policies and procedures when
processing SSN applications for original and replacement Social Security Cards.
Some of the areas of specific attention should be:

   •   use of legal name on immigration documents for Social Security cards
       issued to non-citizens;

   •   completion of “relationship to applicant” field on the Form SS-5;

   •   supervisory review of original SSN applications for U.S. born individuals
       over age 12; and,

   •   inspection of identity documents submitted by applicants through use of a
       visual standard and black light.

SSA Comment

We agree. Management reviews have been established in the LVSSCC to
ensure compliance with all enumeration policies and procedures and to ensure
the continued high quality and integrity of the LVSSCC work product.

Recommendation 2

Continue to monitor controls to ensure SSN applications for individuals with
mailing addresses in the LVSSCC servicing area are processed by a card center
rather than a FO.

SSA Comment

We agree. To ensure the integrity of the enumeration process, it is essential that
the use of the Social Security Card Center be mandatory for all SSN applicants
within its service area. Giving applicants an option of dealing with other Social
Security field offices runs the risk of having persons planning to obtain a card


                                      C-1
improperly go to facilities which might not be as effective in detecting fraudulent
applications and documents. The NY SS-5 Assistant generates an onscreen
alert when an interviewer outside of the card center enters address information
for an applicant residing within the areas serviced by the center. Field office
managers have been instructed to remind staff of the strict jurisdictional policies
that require applicants to deal with the card center unless the application is being
done in conjunction with a claim and/or other post-entitlement action. In addition,
EM-06058, dated 09/19/06, was issued nationally to remind offices to follow the
procedures in RM 00201.015 for referring individuals who are transacting Social
Security Number business and who live in the geographic areas serviced by the
Social Security Card Centers.

Recommendation 3

Continue to monitor procedures to ensure Social Security cards mailed to
LVSSCC are properly controlled and safeguarded.

SSA Comment

We agree. While POMS provides specific instructions for completing the address
field when a SSN card is to be mailed in care of a field office, POMS lacks any
formal procedures that refer to the monitoring and control of SSN cards that are
received in field offices (FO). In order to address the vulnerabilities associated
with lack of records to document the receipt and disposition of SSN cards mailed
to field offices, the San Francisco Region established a procedure for the receipt,
control and disposition of SSN cards mailed to the FO. These procedures were
instituted via a Regional Memorandum issued to all Region IX FOs on
September 12, 2006.




                                      C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments
In addition to those named above:

   Wilfred P.K. Wong, Auditor-in-Charge


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-06-16101.
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
